CERTIFICATE OF WORD COUNT
No. 19-395
Christina Alessio,
Petitioner(s),
v.
United Airlines, Inc.,
Respondents).

STATE OF MASSACHUSETTS)
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. That, as required by Supreme Court Rule 33.1(h), I certify that the Supplemental Brief of
Petitioner Christina Alessio contains 254 words, including the parts of the brief that are required
or exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Lucas *DeDeus
October 16, 2019

SCP Tracking: Alessio-1970 N. Cleveland-Massillon Road-Cover TAN

